                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Zase Number: I02030011                                                      11          Page 1 of 2



      We received an allegation that a Division ~irector'encouraged the fbnding of a mediocre grant2
      and then took a position at the research institution that the grant funded3.

      On Thursday, October 3,2002, an interview was conducted with the Program Officer (PO) to     '
      discuss the details regarding the grant.

      The Program Officer stated that a Principal Investigator (PI) submitted a proposal, which &s
      assigned to one of several panels. The five panelists were instructed to rate the top 10% of the
      proposals as "highly competitive", the second highest 10% of the proposals as "competitive" and
      the remaining proposals in the "do not consider" category. After all of the panel had completed
      deliberations, a coordinating committee of program officers met to review panel
      recommendations and to finalize funding recommendations. The PO strongly encouraged
      funding the grant in question. The PO felt that the proposal had great merit because the PI and
      Co-PI were considered excellent researchers and that the grant promoted empirical research.
      Although he stated that he normally followed the recommendations of the panel, this program
      may have seemed too high-risk.

      The PO scheduled a meeting with the assistant director of the division5andstrongly encouraged
      it's funding. The PO explained that he felt the researchers had a strong background in the area
      and their research involved an important area in which that few people were interested.

      According to the PO, the Division Director, was not involved with decisions regarding this
      proposal. The PO provided us with an email dated June 30,2000 written by the Division Director
      in which he disclosed that he had a conflict with the proposal. The email advised that he was
      negotiating future employment with the PI; therefore the final decision should be based on
      analysis of the proposal and what was believed to be best for the discipline.

      The Designated Agency Ethics Official (DAEO) was contacted to discuss the concerd


      ' Foot note redacted
      * Footnote redacted
          Footnote redacted
      4
          Footnote redacted
          Footnote redacted
          Footnote'redacted


                              Investigator      Attorney              Supervisor              ,     AIGI

  Sign 1 date

                                                                                      NSF OIG Fom 2 (1 1/02)
                                                                                                      11
."   6


                                                                                                      I
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORAND'CTM

     Case Number:                                                                             Page 2 of 2



          regarding conflict of interest issues. DAEO further advised that no conflict of interest existed
          because the subject recused himself from matters involving the entity.

          Accordingly, this case is closed.
